No:
In the
Supreme Court of the United States
MANUEL CHACON-LARA,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
PROOF OF SERVICE
I, Manuel Chacon-Lara, do swear declare that on this day,

day of August

2020, as required by Supreme Court Rule 29,1 have served the enclosed Petition
for Writ of Certiorari, on the Solicitor General of the United States, Room 5614,
Department of Justice, 10th Street and Constitution Ave., N.W., Washington, D.C.
20530, and every other person required to be served via First Class Prepaid
Postage.

No:

In the
Supreme Court of the United States

MANUEL CHACON-LARA,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

CERTIFICATE OF FILING

I, Manuel Chacon-Lara, pursuant to Supreme Court Rule 29.2 do hereby certify
under penalty of perjury pursuant to Title 28 U.S.C. § 1746, that on August

,

20201 placed my copy of my petition for a Writ of Certiorari to the United States
Supreme Court in the Federal - Legal Mail Box for mailing with sufficient First
Class Postage.
I also served the United States Solicitor General with a copy of the brief as
required per Rule 29 of the Supreme Court rules.

I hereby do certify that pursuant to Penalty
of Perjfu0r Title 28 U.S.C. § 1746 that on
this
day of August 2020 I signed and
mailed this document via the Federal Bureau
of Prisons’ Legal Mail System.

Manuel Chacon-Lara
Register Number: 19198-198
Giles W. Dalby Cl
805 North Avenue F
Post, TX 79356

